Docket No.

 

IN THE SUPREME COURT OF THE UNITED STATES

SANDY PEREZ HERNANDEZ,
PETITIONER,

-v-

THE STATE OF TEXAS,
RESPONDENT.

On petition for writ of certiorari from the
Texas Court of Criminal Appeals

 

PROOF AND CERTIFICATE OF SERVICE

 

Pursuant to Supreme Court Rule 29 Petitioner, through counsel, certifies
that all parties required to be served have been served with the Petition for Writ of
Certiorari. The document has been delivered to opposing counsel of record, Michael
Morris, by USPS delivery to 100 E. Cano St., Edinburg, Texas 78539, and by
electronic delivery to Michael.morris@da.co.hidalgo.tx.us.

With OPtesin ——_
Mike DeGeurin
Attorney for Sandy Perez Hernandez

800 Main Street, Suite 300
Houston, Texas

Phone: 713-655-9000

Fax: 713-655-1812
mike@fddlaw.net

Member of the Supreme Court Bar
